2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Le g al Br ie fs E-Mail Address:

contact@cocklelegalbricfs.com

Est, 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-27
MARK CHEESEMAN,
Petitioner,
v.

JOHN POLILLO, CHIEF OF THE GLASSBORO,
NEW JERSEY POLICE DEPARTMENT; AND
KEVIN T. SMITH, SUPERIOR COURT JUDGE,
GLOUCESTER COUNTY, NEW JERSEY,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the MOTION FOR LEAVE TO
FILE BRIEF AND BRIEF OF AMICI CURIAE FIREARMS POLICY COALITION, FIREARMS
POLICY FOUNDATION, CALIFORNIA GUN RIGHTS FOUNDATION, AND SECOND
AMENDMENT FOUNDATION IN SUPPORT OF PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
5999 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1st day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska : LS Qudraw- ,
My Commission Expires Nov 24, 2020 *

Notary Public Affiant 38410

 

 
